VISA LINE OF CREDIT AGREEMENT
The purpose of this agreement is to establish the terms and conditions of your
credit card agreement with McCoy Federal Credit Union. In this agreement,
the words "you" and "your" mean any person receiving and using the card and
that by using the card for the first time "you" agree to all terms and conditions
in this agreement. "Card" means a VISA credit card and any duplicates and
renewals the Credit Union issues. "Account" means your VISA credit card line
of credit account with the Credit Union. "Credit Union," "we," "us," and "our"
mean McCoy Federal Credit Union. You must be a member of the Credit
Union to apply for a credit card.
Except to the extent that Federal Law is applicable, the validity, construction
and enforcement of this agreement and all matters arising out of the issuance
and use of the Card shall be governed by the laws of the State of Florida.
USING THE ACCOUNT/CREDIT LIMIT: Upon your approval for an account,
the Credit Union will establish a line of credit for you. Notification of your limit
will be made when the card is sent to you. You agree not to let your account
balance exceed your approved credit limit. Any transaction that would result in
exceeding your credit limit will be declined.
RESPONSIBILITY: You promise to pay any and all charges incurred by you
or any person whom you authorize to use the Credit Card issued to you, and
any fees or charges incurred in the recovery of a credit card, retrieval of
transaction data or collection of this account in accordance with the terms and
conditions issued by VISA International, Inc., and in accordance with the
policies established by the Credit Union.
Your obligation to pay the amount owed on your account continues until paid
in full even though an agreement, divorce decree or other court judgement to
which the Credit Union is not a party may direct someone else to pay the
account balance.
JOINT ACCOUNT: If more than one person applies for the card each is
individually responsible for all amounts owed on the account and are jointly
and severally responsible for all amounts owed. This means the Credit Union
can enforce this agreement against any of you individually or all of you
together. Each may obtain credit advances without the knowledge of the other
and both are obligated to repay all advances made to the account.
You agree to notify the Credit Union of any address change.
USING THE CARD: You may use the card issued to you to make purchases
in person, and by mail or telephone from merchants and others who accept
VISA cards. You may also obtain cash advances from the Credit Union, from
other financial institutions participating in the VISA program and from
automated teller machines (ATM's), that provide access to the VISA system.
Your VISA Personal Identification Number (PIN) is needed to obtain a cash
advance from an ATM.
INTEREST CHARGES: The monthly periodic rate assessed on your account
is based on an Annual Percentage Rate corresponding to the type of card
account and your Beacon credit score. Your Annual Percentage Rate is
variable and will increase or decrease if the Prime Rate as published in the
Wall Street Journal ("Index") increases or decreases. We figure the Interest
Charge by applying a periodic rate, which corresponds to the Annual
Percentage Rate, to the Average Daily Balance. The Average Daily Balance is
determined as follows: For Purchases: The "Average Daily Balance" for
Purchases is determined by adding all the outstanding advance balances and
billed but unpaid interest charges for each calendar day of the billing period,
and then subtracting all payments, credits and cash advances for the billing
period in which they were made, and then dividing the total by the number of
days in that billing period. For Cash Advances: Each daily balance of Cash
Advances is determined by adding to the outstanding unpaid balance of Cash
Advances at the beginning of the billing cycle any new Cash Advances posted
to your account, and subtracting any payments as received or credits as
posted to your account, but excluding any unpaid Interest Charges. The
periodic rate and corresponding Annual Percentage Rate for each type of card
account is shown on your Truth-in-Lending Statement.

How to Calculate the Interest Charge: The Interest Charge is calculated at
the Annual Percentage Rate disclosed on your Truth- in-Lending Statement
(or as amended from time to time) on the average daily balance of purchase
and cash advances you make, and any debit adjustments the credit union
makes, during the billing cycle. The daily balances are totaled, and divided by
the number of days in the billing cycle to produce separate average daily
balances for purchases, cash advances, and balance transfers to which the
periodic rate is then applied. If your card has a grace period for purchases or
balance transfers and you pay the full amount of the New Balance of
Purchases or New Balance of Balance Transfers within that grace period, the
amount for the applicable type of balance will not be added to the average
daily balance. For Purchases, Cash Advances, or Balance Transfers with no
grace period, interest charges will continue to accrue until the date of
payment. For Purchases or Balance Transfers with a grace period, interest
charges will continue to accrue until the date of the billing cycle preceding the
date on which the entire New Balance is paid in full, if paid within the grace
period; otherwise, interest charges will continue to accrue until the date of
payment.
Cross Collateral: If you have other loans with us, or take out other loans with
us in the future, collateral securing those loans will also secure your
obligations under this agreement. However, unless you expressly agree
otherwise, no dwelling secures your obligation under this agreement.
FEES AND CHARGES: You agree to pay any and all fees that you incur in
connection with your Card, in accordance with applicable law, in the amounts
set forth on your Truth-in-Lending Statement, which fees and amounts may be
amended from time to time.
MONTHLY PAYMENTS: Each payment you make on the account will restore
your credit limit by the amount of the payment which is applied to the principal
amount of purchases and cash advances. At any time your total new balance
exceeds your credit limit, you must immediately pay the amount over your
credit limit.
A PAYMENT IS REQUIRED EACH MONTH; therefore, you must pay at least
the minimum payment shown on your statement by the date specified on your
monthly statement. You can repay any outstanding balance prior to maturity in
whole or in part at your option without penalty. Your monthly payment must
be made directly to:
McCoy Federal Credit Union
P.O. Box 593806
Orlando, FL 32859- 3806

OR

McCoy Federal Credit Union
(credit card remittance statement required)
P.O. Box 96099
Charlotte, NC 28296-0099

The minimum periodic payment required is disclosed on your Truth-in-Lending
Statement.
CREDIT BALANCES: If there is a credit balance due, you may request it.
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.

Grace Periods: You can avoid interest charges on purchases and balance
transfers by paying the full amount of the New Balance of Purchases or New
Balance of Balance Transfers each month within 25 days of your statement
closing date ("Grace Period"). There is no time period within which to pay to
avoid an interest charge on cash advances and interest will accrue from the
date they are posted to your account.

LASER ML FI12489 Rev 11-2015

page 1 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

VISA LINE OF CREDIT AGREEMENT
DEFAULT: You will be in default under this agreement if you fail to make any
minimum payment or other required payment by the date that it is due. You
will be in default if you break any promise you make under this agreement.
You will be in default if you die, file for bankruptcy or become insolvent, that is,
unable to pay your obligations when they become due. You will be in default if
any attachment or garnishment proceedings are initiated against you or your
property. You will be in default if you default on any other indebtedness to the
Credit Union. You will be in default if you make any false or misleading
statement in any credit application or credit update. You will also be in default
if something happens which the Credit Union believes may substantially
reduce your ability to repay what you owe. When you are in default, the Credit
Union has the right to demand immediate payment of your full account
balance without notice. If immediate payment is demanded, you will continue
to pay Interest Charges, at the periodic rate charged before default, until what
you owe has been paid, and any shares that were given as security will be
applied towards what you owe. You agree to pay reasonable collection
expenses, including card recovery fees, attorney fees, court costs, and/or
collection agency fees and costs. If you are head of household, in the event of
default, you grant us permission to garnish head of family earnings in
accordance with Florida law if collection proceedings are brought against you.
No failure or delay by the Credit Union in exercising any rights, powers, and
remedies under this agreement of provided by law shall be deemed a waiver
thereof.

CHANGING OR TERMINATING YOUR ACCOUNT: You agree that the Credit
Union may change the terms of this agreement from time to time as permitted
by applicable law after giving you any advance notice required by law at your
last known address. Your use of the card after receiving notice of a change
will also indicate your agreement to the change, unless applicable law
requires otherwise.

RESTRICTION ON CASH ADVANCES: Your outstanding cash advance
balance may not exceed 50% of your Credit Limit. We may refuse a cash
advance if it would cause the cash advance balance to exceed this amount.

FOREIGN TRANSACTIONS: The exchange rate for international transactions
will be a rate selected by VISA from the range of rates available in wholesale
currency markets, which may vary from the rate VISA itself receives, or the
government-mandated rate in effect for the applicable central processing date,
plus an amount determined by us and disclosed on your Truth-in-Lending
Statement.

CREDIT INFORMATION: You understand that the Credit Union will review
your accounts periodically, and you hereby give your permission to and
authorize the Credit Union to investigate and reassess your creditworthiness.
You authorize the Credit Union to obtain information concerning your credit
history from all available sources now and in the future. You authorize the
Credit Union to disclose information regarding your account to credit bureaus
and creditors who inquire about your credit standing.
IF YOUR CARD IS LOST OR STOLEN OR IF ANY UNAUTHORIZED USE
OCCURS: You agree to notify us immediately if your Card is ever lost or
stolen or if an unauthorized use may have occurred. "Unauthorized use"
means the use of the Card by someone other than you who does not have
actual, implied or apparent authority for such use, and from which you receive
no benefit. The telephone number to call is 1-800-449-7728. You agree to
follow up your call with notice in writing to us at: McCoy Federal Credit Union,
P.O. Box 31552, Tampa, FL 33631-3552. You also agree to assist us in
determining the facts, circumstances and other pertinent information relating
to any loss, theft or possible unauthorized use of your Card and comply with
such procedures as we may require in connection with our investigation. You
will be liable for any unauthorized use only if we can prove that you were
grossly negligent in your use or handling of your Card, or if we can prove that
you used the card fraudulently.
PLAN MERCHANT DISPUTES: We are not responsible for the refusal of any
plan merchant or financial institution to honor your card. Also, we are not
responsible for goods or services you purchase with the card unless (a) your
purchase was made in response to an advertisement we sent or participated
in sending you; (b) your purchase cost $50.00 or more and was made from a
plan merchant in your state or within 100 miles of your home; and you have
made a good faith attempt, but have been unable to obtain satisfaction from
the plan merchant. You must resolve all other disputes directly with the plan
merchant.

You may request an increase in your credit limit either by written application
or by phone.
The Credit Union has the right to reduce or terminate your credit limit at any
time. You understand and acknowledge that such action shall not affect your
obligation to pay any outstanding balance PLUS any interest and other
charges you owe under this agreement. Accounts that have been inactive for
one (1) year may be subject to termination at the renewal date, subject to
applicable law.
The card(s) you receive remain the property of the Credit Union and you must
recover and surrender to the Credit Union ALL cards upon request or upon
termination of this agreement whether by you or the Credit Union.
RETURNS AND ADJUSTMENTS: Merchants who honor your card will give
you credit for returns or adjustments by sending us a credit slip which we shall
post to your Plan. If your credits and payments exceed what you owe us, we
will hold this credit balance against future purchases or refund it to your share
account upon your written request (if it is $1.00 or more).

EFFECT OF AGREEMENT/WAIVER: This agreement is the contract which
applies to all transactions on your account even though the sales, cash
advances, credit or other slips you sign or receive may contain different terms.
The Credit Union can delay enforcing any of its rights any number of times
without losing them. Each provision of this agreement must be considered as
part of the total agreement and cannot in any way be severed from it.
However, you also agree that should any part of this agreement be found
invalid, it will in no way affect the remainder of the agreement.
STATEMENT AND NOTICES: You will receive a statement each month
showing transactions on your account. You are responsible for your minimum
monthly payment even in the event your statement is late or returned to the
Credit Union. Statements and notices will be mailed to you at the most recent
address you have given the Credit Union. Notice to any one of you will be
considered notice to all.
PERSONAL IDENTIFICATION NUMBER(PIN): We will furnish you with a
Personal Identification Number (PIN). You agree to keep the PIN secret. You
also agree you won't write the PIN on the Card or anything you keep with the
card. Your use of the PIN and card in getting a cash advance or making a
purchase is agreed to constitute your signature for purposes of such
transaction.
You may use your McCoy Federal Credit Union VISA Card to conduct any
transaction or obtain any credit union service permitted by law. You agree that
the use of the VISA Card to obtain a service or effect a transaction that is
illegal under the law of any jurisdiction where originated, effected or
accomplished will be a default and breach of this agreement. McCoy Federal
Credit Union may terminate the access to the service or withdraw the right to
use the VISA Card and/or demand the return of all VISA Cards or other
access devices issued to you. If illegal use of your VISA Card occurs, you
waive the right to sue McCoy Federal Credit Union, and agree to indemnify
and hold McCoy Federal Credit Union harmless from any suits or other legal
action or liability which may be asserted, directly or indirectly, again McCoy
Federal Credit Union arising out of or resulting from your illegal use of the
VISA Card.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.

page 2 of 3

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

page 3 of 3

